United States Department of Agriculture
Office of Inspector General




Analysis of Alabama's Supplemental
Nutrition Assistance Program (SNAP)
Eligibility Data




                                          Audit Report 27002-0004-13
                                          January 2012
                         United States Department of Agriculture
                                Office of Inspector General
                                  Washington, D.C. 20250




DATE:          January 31, 2012

AUDIT
NUMBER:        27002-0004-13

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Acting Director
               Office of Internal Control
                Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General
                for Audit

SUBJECT:       Analysis of Alabama’s Supplemental Nutrition Assistance Program (SNAP)
               Eligibility Data


This report presents the results of the subject review. Your written response to the official
draft is included at the end of this report. Excerpts of your January 19, 2012, response and
the Office of Inspector General’s position are incorporated into the applicable sections of the
report.

Based on your response, we have reached management decision on all of the report’s
recommendations. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer. Also, please note that
Departmental Regulation 1720-1 requires final action to be completed within 1 year of the
date of management decision to preclude being listed in the Department’s annual
Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Recommendation Summary....................................................................................2
Background and Objectives ....................................................................................3
Background...............................................................................................................3
Objectives ..................................................................................................................4
Section 1: SNAP Eligibility Oversight Needs Strengthening..............................5
   Finding 1: FNS Should Strengthen its Oversight of DHR’s Eligibility
   Review for SNAP ..................................................................................................5
         Recommendation 1 ........................................................................................7
         Recommendation 2 ........................................................................................8
         Recommendation 3 ........................................................................................8
Scope and Methodology...........................................................................................9
Abbreviations .........................................................................................................10
Exhibit A: Summary of Monetary Results ..........................................................11
Agency’s Response .................................................................................................13
Analysis of Alabama’s Supplemental Nutrition Assistance
Program (SNAP) Eligibility Data (27002-0004-13)

Executive Summary

The Food and Nutrition Service’s (FNS) Supplemental Nutrition Assistance Program (SNAP),
formerly known as the Food Stamp Program, provides monthly food assistance and nutrition for
the health and wellbeing of more than 40 million low-income individuals.1 The Office of
Inspector General (OIG) initiated this audit in February 2011 to analyze the Alabama SNAP
participant database to identify anomalies that may result in ineligible participants receiving
SNAP benefits.

Of the 805,095 average monthly participants in Alabama during fiscal year 2010, we found
1,639 (.2 percent) recipients who were deceased or were using a deceased individual’s Social
Security Number (SSN), had invalid SSNs, were receiving duplicate benefits in Alabama, were
receiving benefits simultaneously with one of five nearby States, or were listed in the Electronic
Disqualified Recipient System (eDRS) as previously disqualified from receiving SNAP
benefits.2 We also found individuals who exceeded gross and net income limitations but
received SNAP benefits because they were “categorically eligible.”3

While Alabama’s Department of Human Resources (DHR) has taken several steps to safeguard
against potential fraud, waste, and abuse, there is still some opportunity for improvement. DHR,
which administers SNAP, does not perform all checks necessary to ensure SNAP benefits go
only to those eligible and in need. Specifically, it does not perform some edit checks that would
help ensure that the participant information that is entered is accurate. Also, because FNS does
not require States to participate in the Public Assistance Reporting Information System (PARIS)
database to check for duplicate enrollment across States or the eDRS system to ensure that
applicants have not been previously disqualified from receiving SNAP benefits, DHR does not
regularly utilize either of these tools.4 DHR also explained that some of these issues occurred
because participation in SNAP has grown by 47.5 percent since 2007, leading to a lack of
resources.




1
  For Fiscal Year 2010.
2
  FNS maintains eDRS which is a national internet-based application that tracks SNAP participants that have been
found guilty of intentional program violations and have been disqualified from the program.
3
  The “categorically eligible” program allows otherwise ineligible participants to continue in the SNAP program,
although they exceed asset and income limits based on FNS policy.
4
  Public Assistance Reporting Information System (PARIS) is a computer matching process by which the Social
Security numbers of public assistance recipients are matched against various Federal databases and those of
participating States to prevent simultaneous participation in benefit programs among States.

                                                                          AUDIT REPORT 27002-0004-13               1
In all, the 1,639 participants whose eligibility should have been researched cause us to question
approximately $207,989 in benefits per month, based on the average monthly amount a recipient
receives in Alabama.5 With a 47.5 percent increase in participation since 2007, SNAP is a
rapidly growing program in Alabama. If DHR does not take measures to increase its
preventative and fraud detection efforts, it risks making continued payments to individuals who
are not eligible for SNAP benefits.

Recommendation Summary
FNS should provide guidance to ensure that DHR is utilizing other sources of information,
including PARIS and eDRS, and using regular edit checks to verify the information in
participant databases is accurate. FNS also needs to require DHR to review the 1,639 individuals
identified in this report and determine if payments were improper and recover as appropriate.

Agency Response
FNS concurs with our recommendations and is actively engaged in a dialogue with regional
offices and with States regarding policies and technical assistance tools which can strengthen
integrity to an even greater extent. FNS has final rules in process that will codify the
requirement for the Social Security Administration (SSA) death match, the prisoner match, and
eDRS matching with expected publication in early 2012. FNS also issued a policy memo on
November 15, 2011, reminding States of the death and prisoner matching requirement. The
State has committed to following up on the 1,639 individuals identified and estimates completion
by September 30, 2012.

OIG Position
OIG concurs with FNS’ response that a policy be issued to codify the States’ requirement to use
the SSA death match, the prisoner match, and eDRS matching to identify participants improperly
receiving SNAP benefits. OIG concurs with Alabama’s response concerning follow-up on the
1,639 individuals identified in the report to determine if they received improper payments. We
reached management decision on the report’s three recommendations.




5
  Potential improper payments are based upon the average amount a recipient receives in Alabama each month
($126.90). We were not able to determine the actual amount because payments are calculated by household, not
individual; therefore, even if one participant is ineligible—such as a deceased participant—it is possible that other
members of the household are eligible to receive benefits at a lower amount. Additionally, because Alabama does
not keep a record of participant start dates, it is uncertain how long these individuals had been receiving benefits,
and therefore difficult to determine total payments made to that individual.

2     AUDIT REPORT 27002-0004-13
Background and Objectives
Background
FNS’ SNAP program, formerly known as the Food Stamp Program, provides monthly food
assistance and nutrition for the health and wellbeing of more than 40 million low-income
individuals. Alabama had 805,095 individuals—or 17 percent of the State’s population—enrolled
in SNAP per month during fiscal year 2010. Since 2007, the program has grown by 47.5 percent.
While FNS pays the full cost of recipient benefits, both FNS and the States share the program’s
administrative costs.

For enrollment and eligibility procedures, SNAP regulations at the Federal level specify minimum
guidelines, such as maximum income requirements, to be enforced by the State agencies; however,
these regulations did not establish a standardized system of internal controls at the State level. FNS’
policy is to allow State agencies the flexibility to establish control systems that meet the individual
needs of each State. For example, Federal regulations allow State agencies to determine whether or
not they will interview recipients face-to-face or on the telephone prior to granting benefits.
According to State officials, Alabama DHR performs telephone interviews for approximately
65 percent of its applicants as opposed to face-to-face interviews. Each State is also allowed to
decide how it would like to organize the administration of SNAP. Each State agency develops and
maintains its own eligibility system—including software and databases—which vary from State to
State. In Alabama, applicants submit documents to prove citizenship, residency, income, and
expenses. To continue in the program, participants are required to verify their need for SNAP
benefits during an interim review every 6 to 12 months, depending on the applicant’s status. 6
Participants in SNAP are approved or denied by DHR based on pre-established eligibility
requirements.

State agencies also have the primary responsibility for monitoring recipients’ compliance with
program requirements and for detecting and investigating cases of alleged intentional program
violations.7 Once applicants have submitted information, either during enrollment or the interim
review process, DHR performs several automated data checks to validate selected information
submitted, including SSNs. State agencies are required to establish a system to ensure that certain
prisoners do not receive benefits.8 State agencies must also check recipient data against a national
SSA database, which can be accessed using SSA’s State Verification Exchange System (SVES),9 to


6
  Participants who are aged or disabled and receive Supplemental Security Income only need to recertify every
12 months. All other participants must report any changes and verify their information during an interim review,
occurring every 6 months.
7
  An intentional program violation is defined as any act violating the Food Stamp Act, the Food Stamp Program
regulations, or any State statute for the purpose of using, presenting, transferring, acquiring, receiving, possessing,
or trafficking SNAP benefits. The definition includes any act that constitutes making a false or misleading
statement or concealing or withholding facts.
8
  Public Law (PL) 105-33, Balanced Budget Act of 1997, Section 1003 (a) (1), dated August 5, 1997; and
PL 114-246, the Food and Nutrition Act of 2008, Section 11(q), dated October 1, 2008.
9
  Provided at no cost to State agencies, SVES matches against several national databases to check for death and SSN
verification for every submitted individual. SSA’s Death Master File also checks SSNs nationwide to search for
deceased individuals.

                                                                             AUDIT REPORT 27002-0004-13              3
ensure that deceased recipients do not receive benefits.10 In addition, DHR, like most other
agencies who administer SNAP, utilizes additional national and State database systems to verify
income and employment information provided by applicants.

Objectives

OIG initiated this audit to analyze the Alabama SNAP participant database to identify anomalies
that may result in ineligible participants receiving SNAP benefits.




10
     PL 105-379, An Act to Amend the Food Stamp Act of 1977, Section 1(a), dated November 12, 1998.

4        AUDIT REPORT 27002-0004-13
Section 1: SNAP Eligibility Oversight Needs Strengthening

Finding 1: FNS Should Strengthen its Oversight of DHR’s Eligibility Review
for SNAP
We found that of the 805,095 average monthly participants in Alabama as of November 2010,
1,639 (.2 percent) participants were deceased, were using a deceased individual’s SSN, had
invalid SSNs, were receiving duplicate benefits in Alabama, were receiving benefits
simultaneously with one of five nearby States, or were listed in eDRS as previously disqualified
from receiving SNAP benefits. We also found individuals who exceeded gross and net income
limitations but received SNAP benefits because they were “categorically eligible.” While DHR
has taken several steps to safeguard against potential fraud, waste, and abuse, there is some
opportunity for improvement. Specifically, DHR does not perform some edit checks that would
ensure the participant information is entered accurately. Also, because FNS does not require
States to participate in the PARIS database to check for duplicate enrollment across States or the
eDRS system to ensure that applicants have not been previously disqualified from receiving
SNAP benefits, DHR does not regularly utilize either of these tools. Not performing these
checks increases the risk of improper payments. In all, the 1,639 participants that should have
been researched and possibly removed continued to receive approximately $207,989 in benefits
each month.

To verify that benefits are not issued to individuals who are deceased, DHR, like all agencies
who administer SNAP, is required to compare the information in its SNAP participant database
with national SSA death information. DHR runs this match on a monthly basis. However, when
we used SSA’s Death Master File to perform this check ourselves, we found that 487 current
Alabama SNAP participants’ SSNs were listed in SSA’s Death Master File.11 DHR’s policy is to
verify these results to ensure that the matches are not erroneous SSNs in the system that should
be corrected. If verified, the participant should be removed from the program at the next client
review, in accordance with simplified reporting policy.12 Officials stated that participants
remained active after they were dead because they were waiting for the next review period to
remove the participant, or a case worker may not have removed the participant on time due to
resource constraints. Of the 487 individuals identified in our match, 179 of these individuals
were enrolled as a one-person household and benefits on the account were used after their date of
death.13 In one case, benefits on the account were accessed over five years after the participant’s
date of death. DHR is in the process of researching and resolving these cases.




11
   The SSA Death Master File is used by leading government, financial, investigative, credit reporting, medical, and
research organizations as well as other industries to verify individuals have died.
12
   Simplified reporting is a method of approving households. Once a household is approved, the benefits do not
change for that household until their eligibility time expires, at which time they re-certify and report all changes and
reaffirm they are eligible for SNAP.
13
   This test could only be performed on one person households. When there are multiple people in a household, the
system cannot distinguish which member of the household is using the benefits.

                                                                              AUDIT REPORT 27002-0004-13              5
We also found individuals using invalid SSNs. DHR’s procedure is to verify that an applicant’s
SSN is valid when initially applying for SNAP.14 However, we found that 295 participants had
SSNs that did not match the format of the SSA scheme for valid SSNs. This occurred because
DHR was not checking for SSNs following invalid schemes or input errors caused when
personnel enter the number into the system incorrectly, which could result in invalid SSNs.
DHR officials stated that the reasons for the invalid SSNs were due to data entry errors. DHR
has corrected many of these SSNs and is researching the remaining instances to obtain a valid
SSN. DHR also stated that they are in the process of improving data edit checks to prevent these
types of errors in the future. We encourage DHR to continue to improve the edit checks on
participant data. We also found 50 individuals receiving SNAP benefits simultaneously under
two separate accounts in Alabama. DHR currently has an edit check to prevent entering the
same SSN in the system, but this check was avoided for 10 of these individuals. For the
remaining 40 individuals, applicants were applying under two different SSNs and using different
addresses. Despite the applicant providing the same name and date of birth, DHR did not detect
it because the edit check only looks for duplicate SSNs. DHR has investigated these cases and
closed or corrected the duplicates where necessary. A claim for benefit recovery has been issued
for cases where overpayments occurred.

DHR also had multiple instances of simultaneous enrollment with the States of Florida,
Louisiana, Mississippi, Missouri, and Texas. Each participant should only receive SNAP
benefits from the State where the participant resides. If a participant indicates prior participation
in another State, the caseworker contacts the other State to determine their current status. We
compared SNAP enrollment between Alabama and these nearby States and found that 669
individuals enrolled in the Alabama SNAP program were simultaneously enrolled in one of five
nearby States for three consecutive months or longer. This occurred because DHR, along with
other State agencies, does not utilize PARIS—an optional, multi-State database that stores social
welfare program participant information—because it is not mandatory. With mandatory SNAP
participation in PARIS or a similar system, DHR—as well as other State agencies—would have
access to a reliable, nationwide database, which they could then utilize in their fraud detection
efforts to minimize interstate duplicate enrollment.

Additionally, we found 138 active participants who were previously disqualified from receiving
SNAP benefits. FNS maintains eDRS, which is a national system that tracks SNAP participants
who have been disqualified from the program due to intentional program violations. States are
required by FNS to input individuals who have been disqualified, but they are not required to
check this system before allowing a person in the program. Of these 138 participants, DHR
officials stated 38 participants who were disqualified in another State were allowed into SNAP in
Alabama because DHR does not regularly check eDRS. An additional 87 were allowed to
continue in the program due to caseworker oversight of documentation regarding the
disqualification. Another 10 participants moved to a different county within Alabama, but
caseworkers did not communicate with the previous county to verify disqualification status. For
the remaining 3 participants, DHR officials needed to complete follow-up activities. We
recommend that FNS require States to verify individuals have not been disqualified from SNAP
prior to allowing them into the program.


14
     DHR Chapter 6, Section 600, Requirements for Participation, dated May 1, 2011.

6        AUDIT REPORT 27002-0004-13
We also found 166 households that exceeded the gross and net income limitations of the SNAP
program. For 143 of these cases, this was not a violation because of the “categorically eligible”
program. This program allows otherwise ineligible participants to participate in SNAP despite
exceeding asset and income limitations. For the remaining 23 cases, DHR responded that the
clients were not a part of the “categorically eligible” program and should not have received benefits.
Claims have been issued for benefit recovery in these cases and DHR is in the process of
implementing new edit checks to verify whether clients are categorically eligible.

For many of the anomalies we identified above, we could not calculate the amount of the
improper payments because Alabama does not store the participants’ start dates in its eligibility
system, only the case start date. FNS responded that States are required to keep the initial
certification date and the most recent certification date. We found that the participation start date
is important to determine the amount of any improper payments and to provide statistics on the
history of SNAP participation.

In all, the 1,639 participants whose eligibility should have been researched cause us to question
approximately $207,989 in benefits per month, based on the average benefit amount a recipient
receives in Alabama. We have forwarded these participants to DHR for further research and
investigation. Taken within the context of SNAP as a whole, our findings do not represent large
monetary sums, but they do show areas where FNS and DHR could make progress in reducing
potential improper payments. We recognize that DHR is in the process of researching and
resolving many of these issues and believe that by utilizing input edit checks and a process to
check eDRS for disqualifications, DHR can further improve its fraud detection and prevention.
In addition, if FNS mandates that all States participate in PARIS or a similar national database,
States would have a powerful resource to use in checking for—and ultimately reducing—
interstate duplicate enrollment nationwide.

Recommendation 1
Ensure that DHR regularly performs checks to determine whether information in participant
databases is accurate and complete

Agency Response
FNS has final rules in process that will codify the existing requirement that States perform the
SSA death match. This rule is expected to be published in early 2012. FNS has also issued a
policy memo reminding States of this requirement, which went out to States on
November 15, 2011. Alabama is currently in the process of establishing a monthly report to
identify participants with incorrect social security numbers to be generated in the month prior to
the last month of certification in order to address the issue with recipients during the
recertification process. Expected date of completion is January 31, 2012.




                                                                  AUDIT REPORT 27002-0004-13        7
OIG Position
OIG concurs with FNS’ response that a policy be issued to codify the States’ requirement to use
the SSA death match. We reached management decision on this recommendation.

Recommendation 2
Require DHR to check eDRS to verify if participants are disqualified prior to allowing
participants into SNAP.

Agency Response
FNS requires States to input individuals who have been disqualified from SNAP into the eDRS.
States are currently required to check eDRS if they suspect the client is in a disqualified status
and to determine the penalty length for a person who was found guilty of an intentional Program
violation. FNS has final rules in process which will require all applicants to be checked against
the eDRS system prior to certification. This final rule is expected to be published in early 2012.
FNS estimates completion by June 1, 2012.

OIG Position
OIG concurs with FNS’ response to require all applications to be checked against the eDRS
system prior to certification. We reached management decision on this recommendation.

Recommendation 3
Require DHR to review the 1,639 individuals identified in this report and determine if
participants have received improper payments. Recover improper payments as appropriate.

Agency Response
FNS agrees with this recommendation and estimates completion by September 30, 2012.

OIG Position
OIG concurs with Alabama’s response concerning follow-up on the 1,639 individuals identified
in the report and will determine if they received improper payments. We reached management
decision on this recommendation.




8    AUDIT REPORT 27002-0004-13
Scope and Methodology
We analyzed the participants in the Alabama SNAP program for the timeframe of September
2010 through November 2010. Alabama was selected because it is in the southeast region and
we had looked at several other States in that region. We selected the timeframe of September
2010 through November 2010 because, at the time of our audit, it was the latest information
available.

We obtained SSA’s Death Master File and extracts of key SNAP participant data from DHR
officials. We also obtained SNAP participant data from the five nearby States of Florida,
Louisiana, Mississippi, Missouri, and Texas. We analyzed this data using Audit Command
Language. Our tests were developed to identify anomalies that may result in ineligible
participants receiving SNAP benefits and to determine whether FNS provided adequate program
guidance and oversight. Our tests determined whether:

   ·   Active SNAP participants were using deceased individual’s SSNs,
   ·   Invalid SSNs were used,
   ·   Duplicate payments were received,
   ·   Recipients were receiving benefits simultaneously from nearby States, and
   ·   Individuals listed on eDRS were receiving benefits.

As appropriate, the anomalies identified were verified by DHR officials.

We reviewed public laws and FNS regulations, policies, and other controls governing the
administration of SNAP to ensure DHR complied with Federal guidelines. We evaluated reports
that resulted from reviews relating to SNAP, the Federal Manager’s Financial Integrity Report
for fiscal year 2011, and Government Accountability Office reports. We interviewed DHR
officials and obtained an extract of the eligibility database.

We conducted our audit work with DHR in Montgomery, Alabama and FNS’ national office in
Alexandria, Virginia. We also coordinated our audit with FNS’ southeast regional office in
Atlanta, Georgia. Our audit period was February 2011 through January 2012.

We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                               AUDIT REPORT 27002-0004-13      9
Abbreviations
DHR ............................ Department of Human Services
eDRS ........................... Electronic Disqualified Recipient System
FNS ............................. Food and Nutrition Service
FY ............................... Fiscal Year
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
PARIS ......................... Public Assistance Reporting Information System
PL................................ Public Law
SNAP .......................... Supplemental Nutrition Assistance Program
SSA ............................. Social Security Administration
SSN ............................. Social Security Number
SVES........................... State Verification Exchange System
USDA.......................... Department of Agriculture




10     AUDIT REPORT 27002-0004-13
Exhibit A: Summary of Monetary Results

FINDING RECOMMENDATION
                       DESCRIPTION                       AMOUNT          CATEGORY
NUMBER      NUMBER

                                        487 Clients
                                                          $61,800      Questioned Cost,
                                       identified on
    1                  3                                  average         Recovery
                                         the Death
                                                         per month      Recommended
                                        Master File
                                        669 Clients
                                      participating in    $84,896      Questioned Cost,
                                       SNAP in AL
    1                  3                                  average         Recovery
                                      and either FL,
                                                         per month      Recommended
                                      LA, MS, MO,
                                           or TX
                                         50 Clients        $6,345      Questioned Cost,
                                         receiving
    1                  3                                  average         Recovery
                                         duplicate
                                                         per month      Recommended
                                       benefits in AL

                                        295 Clients       $37,436      Questioned Cost,
    1                  3               using invalid      average         Recovery
                                           SSNs          per month      Recommended


                                         138 Clients      $17,512      Questioned Cost,
    1                  3               listed in eDRS     average         Recovery
                                            system       per month      Recommended

                                                         $207,989
 TOTAL                                                   average
                                                         per month


The table above represents the $207,989 in average questioned costs per month, recovery
recommended.




                                                            AUDIT REPORT 27002-0004-13    11
12   AUDIT REPORT 27002-0004-13
Agency’s Response




                 USDA’S
      FOOD AND NUTRITION SERVICE’S
        RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 27002-0004-13   13
United States
Department of
Agriculture      DATE:          January 19, 2012

                 AUDIT
Food and
Nutrition
Service          NUMBER:        27002-04-13

3101 Park        TO:            Gil H. Harden
                                Assistant Inspector General for Audit
Center Drive
Room 712


                 FROM:          /s/ <Jeffrey Tribiano> (for): Audrey Rowe
Alexandria, VA
22302-1500
                                Administrator
                                Food and Nutrition Service

                 SUBJECT:      Analysis of Alabama’s Supplemental Nutrition Assistance Program
                               (SNAP) Eligibility Data

                 This letter responds to the official draft report for audit report number 27002-04-13,
                 Analysis of Alabama’s Supplemental Nutrition Assistance Program (SNAP) Eligibility
                 Data. Specifically, the Food and Nutrition Service (FNS) is responding to the three
                 recommendations in the report.

                 OIG Recommendation 1:

                 Ensure that DHR regularly performs checks to determine whether information in
                 participant databases is accurate and complete.

                 Food and Nutrition Service Response:

                 FNS takes program integrity very seriously. Any errors are of concern; however, FNS
                 notes that the findings in this report constitute only 0.2 percent of the Alabama
                 caseload suggesting that while current processes can always be improved, they are, in
                 fact, working. Pursuant to the critical importance of integrity to ensure that people in
                 need receive nutrition assistance to which they are entitled, FNS is actively engaged in
                 a dialogue with our regional offices and with States regarding policies and technical
                 assistance tools which can strengthen integrity to an even greater extent.

                 FNS already has a number of activities in place that will address the situations found in
                 this report. FNS has final rules in process that will codify the existing requirement that
                 States perform the SSA death match. This rule is expected to be published in early
                 2012. FNS has also issued a policy memo reminding States of this requirement, which
                 went out to States on November 15, 2011. According to the Alabama State agency’s
                 comments on the audit, they are currently in the process of establishing a monthly
                 report to identify participants with incorrect social security numbers to be generated in
                 the month prior to the last month of certification in order to address the issue with
                 recipients during the recertification process.
                                                                                   P age |2




FNS is also currently in the process of awarding a grant through the Office of
Management and Budget (OMB) Partnership Fund for Program Integrity. This grant will
fund development of a pilot clearinghouse database with information from five States in
the Southeast and Southwest for detecting duplicate participation in SNAP and disaster
SNAP (D-SNAP) across State boundaries. FNS supports Alabama’s participation in this
partnership fund pilot project that will explore options for better interstate duplicate
participation monitoring. Additionally, audit States Mississippi, Louisiana, and Florida
are also part of the coalition of States that will use grant funds from the OMB Partnership
Project to develop the interstate clearinghouse.

Per SNAP regulations at 7 CFR 272.4(e)(1), each State agency shall establish a system to
assure that no individual participates more than once in a month, in more than one
jurisdiction, or in more than one household within the State. FNS further encourages
States to have processes in place to check data with neighboring States to prevent
duplicate participation across State lines. The Public Assistance Reporting Information
System (PARIS) is available to States as an additional tool to identify interstate duplicate
participation but it is not mandatory for States to use PARIS. Some States have
expressed concerns that the information in PARIS is not timely.

FNS further notes that a household is categorically eligible for SNAP if it receives
Supplemental Security Income (SSI), general assistance (GA), Temporary Assistance for
Needy Families (TANF) assistance or non-cash benefits or services. Categorically
eligible households must meet the income and asset limits from the TANF, GA, or SSI
program to be eligible for SNAP. While categorical eligibility makes a household
eligible for SNAP, the household must still meet all other SNAP eligibility requirements
and have a net income that qualifies it for a benefit.

Expected Completion Date: January 31, 2012

OIG Recommendation 2:

Require DHR to check eDRS to verify if participants are disqualified prior to allowing
participants into SNAP.

Food and Nutrition Service Response:

FNS requires States to input individuals who have been disqualified from SNAP into the
Electronic Disqualified Recipient System (eDRS). States are currently required to check
eDRS if they suspect the client is in a disqualified status and to determine the penalty
length for a person who was found guilty of an intentional Program violation. However,
FNS has final rules in process which will require all applicants to be checked against the
eDRS system prior to certification. This final rule is expected to be published in early
2012.

Estimated Completion Date: June 1, 2012




                              AN EQUAL OPPORTUNITY EMPLOYER
                                                                                       P age |3




OIG Recommendation 3:

Require DHR to review the 1,639 individuals identified in this report and determine if
participants have received improper payments. Recover improper payments as
appropriate.

Food and Nutrition Service Response:

FNS agrees with this recommendation. According to the Alabama State agency’s
response to the audit, most cases have already been reviewed and referred for claims if
the review indicated an overpayment was issued.

FNS would also like to take this opportunity to note a clarification in response to the
report. The report indicates that OIG could not calculate the amount of the improper
payments because Alabama does not store participants’ start dates in the eligibility
system, only the case start date. There is no definition for “start date” in the SNAP
regulations. While the State will know the current certification period, States are not
required to capture the date a client was first certified for SNAP in the eligibility system.
The start dates for clients will likely be in the State case files but there is no regulatory or
statutory requirement that they be in the electronic record.

Estimated Completion Date: September 30, 2012




                               AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer (1)
 Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
